           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
  INCOME AND RESOURCE VERIFICATION
   PROCESS FOR INDIVIDUALS APPLYING
       FOR HELP WITH MEDICARE
     PRESCRIPTION DRUG PLAN COSTS

  February 2008        A-06-06-16135




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                         SOCIAL SECURITY
MEMORANDUM

Date:      February 19, 2008                                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Income and Resource Verification Process for
           Individuals Applying for Help with Medicare Prescription Drug Plan Costs
           (A-06-06-16135)


           OBJECTIVE
           Our objective was to determine the effectiveness of income and resource verifications
           performed for individuals applying for help with Medicare prescription drug plan costs.

           BACKGROUND
                                                                                                     1
           The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, also
           known as the Medicare Modernization Act, established a new, voluntary Part D
           Prescription Drug Program effective January 1, 2006. The Centers for Medicare and
           Medicaid Services (CMS) have overall responsibility for implementing this voluntary
           prescription drug program, whose costs are funded through Medicare’s Supplementary
           Medical Insurance Trust Fund.

           The Medicare Modernization Act provides for certain low-income individuals to receive
           Part D premium, deductible and co-payment subsidies. Individuals who have Medicare
           and receive Supplemental Security Income (SSI) and/or Medicaid or who participate in
           the Medicare Savings Program are automatically deemed eligible for the subsidy. As
           part of its responsibilities, the Social Security Administration (SSA) provides general
           information to the public about Part D and the low-income subsidy. 2 SSA supplies
           applications for the low-income subsidy and assists the public with filing these
           applications. SSA’s primary role is to determine the individual’s income in relation to
           the poverty level for a family of the size involved, resources and whether a person will
           be eligible for a full or partial subsidy. In making these determinations, SSA applies
           certain exclusions to income that are modeled after the exclusions used in the SSI


           1
               Public Law 108-173.
           2
            SSA, Program Operations Manual System (POMS) HI 03001.001.C, Description of the Medicare
           Prescription Drug Program.
Page 2 - The Commissioner


program. Our review of SSA data indicated that, as of February 22, 2007, SSA had
approved subsidies to about 2.1 million applicants and denied subsidies to about
2.5 million applicants.

SSA developed a simplified form that subsidy applicants use to disclose their level of
income and resources, under penalty of perjury. Subsidy eligibility determinations are
based, in part, on a comparison of the income and resource information provided on
the application (application data) with income and resource data that appear in SSA
records or are obtained through matching agreements with other agencies (agency
data). SSA contacts individuals to verify the accuracy of agency data before using it to
terminate, deny or reduce the subsidy. SSA policy requires that it inform the individual
about any materially discrepant information from other agencies and accept the
individual's reasonable explanation to reconcile the discrepant information. 3

Because of the high volume of subsidy applications, SSA developed an electronic
process where applications are scanned into the Medicare Application Processing
System, and amounts attested to on the application are compared with agency data. If
both application and agency data indicate income and resources are within established
limits, SSA approves the subsidy. If inconsistencies are detected that affect the
eligibility determination, SSA implements a verification process whereby field offices
contact the applicant to resolve the differences.

A flowchart describing the subsidy application process is provided in Appendix A. The
scope and methodology of our review is provided in Appendix B.

RESULTS OF REVIEW

SSA income and resource verifications for individuals applying for help with Medicare
prescription drug plan costs were not always effective. Our review of a sample of
denied subsidy applications found that SSA properly denied each because applicant
income and/or resources exceeded limitations specified by law.

However, our review of approved subsidy applications indicated that SSA approved
subsidies without properly establishing applicant eligibility in approximately 13 percent
of cases reviewed. In each of these cases, SSA approved subsidies for applicants
whose income and/or resources appeared to exceed eligibility limits.

A projection of our sample findings to the population of approved subsidies indicated
that SSA approved subsidies to about 276,000 individuals whose income and/or
resources appeared to exceed eligibility limits. Based on the Calendar Year 2006
average expenditures per Part D enrollee, enrollment of these individuals in prescription
drug plans would result in questionable Medicare Trust Fund Part D low-income subsidy




3
    POMS HI 03035.005E, Verification Process - General
Page 3 - The Commissioner


expenditures of about $473 million during a 12-month period. 4 In addition, we found
SSA’s redetermination process is unlikely to be effective in terminating these
questionable subsidy approvals. A projection of our sample results to the population of
approved subsidies indicated that approximately 130,000 of the 276,000 questionable
subsidies were likely to continue for at least another year, resulting in additional
estimated Medicare Trust Fund expenditures of about $224 million over 12 months.
(See Appendix C for a description of how this estimate was calculated.)

During preliminary discussions of our audit results with Agency officials, SSA disagreed
with our overall conclusion that it approved low-income subsidies without establishing
applicant eligibility. SSA stated Congress’ intent was for SSA to enroll, as quickly as
possible, the maximum number of eligible citizens into the prescription drug program.
To accomplish this, SSA developed a streamlined income and resource verification
process that relied heavily on applicant attestations under the penalty of perjury. SSA
stated that the Department of Health and Human Services/the Centers for Medicare
and Medicaid Services and the Office of Management and Budget were actively
involved in the development of the Agency’s low-income subsidy policies and
procedures. SSA disagrees in most cases that it made incorrect low-income subsidy
eligibility determinations. Instead, SSA officials stated it made the best possible
determinations based on information available at the time. We recognize SSA based
decisions on the information available at the time. However, as discussed below,
information available after SSA approved low-income subsidies calls into question the
validity of those decisions.

SUBSIDY ELIGIBILITY NOT ESTABLISHED

SSA approved low-income subsidies for applicants whose income and/or resources
appeared to exceed eligibility limits. Federal law5 requires that SSA subject income and
resource information provided on subsidy applications “to appropriate methods of
verification.” However, our review of 275 statistically selected approved subsidies
identified 36 individuals (13.1 percent) who appeared to have income and/or countable
resources in amounts that should have disqualified them from eligibility consideration.
On October 3, 2007, we met with SSA Operations and Systems staff to discuss the
36 questionable subsidy awards. Based on this discussion, we grouped the
discrepancies into six categories.



4
  This projection is based on the $1,715 estimated average cost of providing low-income subsidy benefits
to Medicare Part D low-income subsidy enrollees during Calendar Year 2006, as reported in the
2007 Annual Report of the Boards of Trustees of the Federal Hospital Insurance and Federal
Supplementary Medical Insurance Trust Funds, page 157, Table IV.B.11, Incurred Reimbursement
Amounts per Enrollee for Part D Expenditures. This average is based on cost of providing premium,
deductible, and co-payment subsidies for all 9.1 million enrollees who received the low-income subsidy.
Subsidized enrollees include low-income recipients approved by SSA as well as low-income recipients
deemed eligible for subsidy benefits by CMS. The $1,715 subsidy cost is in addition to the $1,146
estimated average cost of providing basic prescription drug coverage to all enrollees.
5
    The Social Security Act § 1860D-14(a)(3)(E)(iii)(III), 42 U.S.C. § 1395w-114(a)(3)(E)(iii)(III).
Page 4 - The Commissioner



                       Review of 275 Approved Subsidy Applications


                                                                Recipient
                                                              Subsequently
                                                                Deemed       SSA Agrees
                                                               Eligible for Decision Error
                                             Field Office       Benefits      Occurred
                                             Disregarded            5             4
                                             Agency Data                           IRS Data Not
                                               Without                        Available When SSA
         Eligibility     Eligibility Not    Documentation                     Awarded Subsidy 3
         Properly                                 8
                          Established
                                                                               Income Verification
        Established            36
                                                                                   Not Necessary
            239
                                                                                            2
                                                            Wage Information Not
                                                              Available at Time
                                                            SSA Awarded Subsidy
                                                                     14




Wage Information Not Available When SSA Approved Subsidy

SSA approved low-income subsidies to 14 applicants whose earned wages should
have disqualified them from eligibility consideration. In each case, individuals
understated the amount of wages earned by themselves or their spouses on their
subsidy applications.

We compared wage information provided on approved subsidy applications with SSA
earnings records and found these 14 applicants understated their wages and/or their
spouse’s wages in amounts that ranged from $1,280 to $40,892. In each instance,
SSA would have denied the subsidy application if accurate wage amounts were
considered in the eligibility determination. For example, in response to the application
question “What do you expect to earn in wages before taxes this year?” one applicant
checked “NONE” then wrote the amount “1100” on an application filed in October 2006.
Because “NONE” was checked, SSA used $0 in making its eligibility determination.
SSA did not verify this amount and approved the subsidy. However, our review of this
individual’s earnings record revealed she was employed during 2006 and earned
$34,349 in wages, which should have disqualified her from low-income subsidy
eligibility.

SSA staff stated it accepted wage amounts provided by subsidy applicants without
verification because, when SSA processed the subsidy applications, current
Page 5 - The Commissioner


information 6 needed to verify wage amounts provided by applicants was not available.
While SSA eligibility determinations were based on information available when the
applications were processed, accurate wage information available after the subsidy
approvals revealed the determinations were incorrect, and these applicants received
benefits to which they were not properly entitled.

Field Offices Disregarded Agency Data Without Documentation

SSA approved low-income subsidies to eight applicants whose income or resources
should have disqualified them from eligibility consideration. In each case, before
subsidy approval, SSA obtained Internal Revenue Service (IRS) data that indicated the
applicants did not qualify for the low-income subsidy. However, SSA disregarded the
IRS information and used lower or $0 amounts reported by subsidy applicants.

In each of the eight cases, SSA was aware that significant discrepancies existed
between application and Agency data and forwarded the cases to field offices for
                           7
verification. SSA policy requires that field office staff discuss such discrepancies with
applicants. If the applicants give credible explanations for the differences, SSA policy
directs that field office staff should accept the explanations and document these
contacts. 8 However, in all eight cases, field office staff accepted the income or
resource amounts provided by the subsidy applicant and approved the subsidy without
documenting applicant contacts or providing any explanation or justification for
disregarding the IRS data.

Based on a review of existing documentation, SSA should have denied these subsidy
applications. However, it is also possible that, during the verification process, the
applicants provided SSA with evidence or explanation that justified disregard of Agency
data, and SSA personnel simply neglected to document the information provided by the
applicants. If true, SSA personnel approved the subsidies without following established
procedures; but approval was justified. If all eight of these cases were nothing more
than documentation errors, the percentage of erroneously approved subsidies in our
sample would fall from 13.1 percent to 10.2 percent, and the total estimated Medicare
Trust Fund expenditures to provide questionable low-income subsidies would be
reduced by approximately $105 million.

In response to problems noted with verification documentation, on June 21, 2007, SSA
issued Policy Instruction AM-07086, Processing and Documenting Medicare Part D
Subsidy Verification Issue Resolutions in the Medicare Application Processing System
(MAPS) – REMINDERS. This Instruction was sent to all Regional Commissioners,


6
 Refers to wages reported to SSA by employers or to wage information provided through computer
matching agreement with the Office of Child Support Enforcement.
7
    SSA, POMS, HI 03035.005E.
8
 SSA, POMS, HI 03035.005E.1 and F.1. We identified 19 cases where field offices provided justification
for accepting the lower amounts provided by applicants before approving the subsidy award. We did not
question these subsidy approvals.
Page 6 - The Commissioner


Deputy Regional Commissioners, Area Directors, Field Offices, Teleservice Centers,
and Payment Centers. The Instruction provided detailed background as well as specific
directions for documenting verification determinations.

Recipient Subsequently Deemed Eligible for Benefits

SSA approved low-income subsidies for five applicants whose wages, Social Security
benefits, or resources should have disqualified them from eligibility consideration.
However, after the SSA initial eligibility determination, CMS deemed each of these five
individuals eligible for full subsidy benefits because they were entitled to Medicare
benefits and
•   received full Medicaid or
•   were Qualified Medicare Beneficiaries, Specified Low-Income Medicare
    Beneficiaries or Qualifying Individuals.

Beneficiaries who are deemed eligible are automatically entitled to the subsidy and do
not have to file subsidy applications with SSA. As a result, SSA staff stated these
cases were no longer subject to SSA review. While we agree these cases are no
longer under SSA purview, we question how individuals with income and resources
exceeding subsidy eligibility limits were able to qualify for CMS deeming. For instance,
SSA records indicate one applicant and his spouse received over $35,000 in annual
Social Security benefit payments. These benefit payments exceeded the
$19,800 maximum income limit for this household and should have disqualified the
applicant from subsidy eligibility consideration. However, CMS deemed the individual
eligible for the subsidy. We plan to refer these questionable cases to the Department
of Health and Human Services’ Office of Inspector General.

SSA Agrees That Approval Decision Error Occurred

SSA approved low-income subsidies for four applicants whose income or resources
should have disqualified them from eligibility consideration. Had SSA based eligibility
determinations on wage and resource amounts actually disclosed by these individuals,
these applications would have been denied. SSA reviewed each of these four cases
and agreed it should not have approved the subsidies.

•   Two cases resulted from application scanning errors. Both applicants disclosed
    income or ownership of high-dollar assets in excess of subsidy eligibility limits.
    However, when SSA scanned these applications into MAPS, significant digits were
    omitted and not considered in the determination process. To illustrate, one
    applicant disclosed self-employment earnings of $60,000, and another disclosed
    ownership of $109,321 in stocks and bonds. These disclosures should have
    prevented further eligibility consideration. However, as a result of scanning errors,
    SSA based eligibility determinations on the amounts “$60.00” and “$9,321,”
    respectively.
Page 7 - The Commissioner


•   In one case, SSA approved a subsidy for a married individual although the applicant
    and spouse received Social Security benefits in excess of eligibility limits. While
    SSA agreed the subsidy should not have been approved, it also noted this error was
    corrected approximately 8 months later (August 2006) when the subsidy was
    selected for redetermination and terminated as a result of the Social Security
    benefits paid to the couple.

•   In one case, SSA could not explain why it approved a low-income subsidy for an
    applicant whose combined Social Security benefits, wages, and unearned income
    were in excess of subsidy eligibility limits.

IRS Data Not Available When SSA Awarded Subsidy

SSA approved a low-income subsidy for three applicants whose unearned income or
resources should have disqualified them from eligibility consideration. SSA staff stated
it accepted income and resource amounts provided by these subsidy applicants without
verification because, when SSA processed the subsidy applications, IRS information
needed to verify amounts provided by applicants was not available. After SSA receives
a subsidy application, it requests financial information from the IRS for use in verifying
income and resource amounts provided by the applicant. According to SSA, if the IRS
does not provide these data within 28 days, SSA accepts amounts provided by the
applicant and renders its eligibility determination. While SSA eligibility determinations
were based on information available at the time the applications were processed, IRS
information available after the subsidy approvals indicated the determinations were
incorrect and these applicants received benefits to which they were not properly
entitled.

SSA Did Not Believe Income Verification Was Necessary

SSA approved low-income subsidies to two applicants whose unearned income should
have disqualified them from eligibility consideration. In both cases, SSA stated income
verification was not necessary because the applicants responded “YES” to Question 10
on the subsidy application (see excerpt from an the application below).
Page 8 - The Commissioner




According to SSA, to expedite the eligibility determination process, the MAPS was
programmed to disregard the unearned income in agency data and accept applicant-
provided income information—without any additional verification—if the applicant
indicated their pension and other income amounts had decreased in the past 2 years.
Because an applicant’s pension or other income can decrease over time but still be
sufficient to disqualify the applicant from low-income status, we do not believe SSA
sufficiently verified these applicants’ income. IRS information available when SSA
approved these subsidies indicated both determinations were incorrect and these
applicants received benefits to which they were not properly entitled.

SUBSIDY ELIGIBILITY REDETERMINATION PROCESS

A change in income, resources or household size can affect a person’s eligibility for the
Medicare Part D subsidy. As a result, SSA is required to periodically redetermine a
person’s eligibility for the low-income subsidy. 9

SSA’s Original Redetermination Process

To expedite the large volume of redeterminations required with a program involving
millions of subsidy recipients, SSA instituted a primarily passive redetermination
process. Under this passive process, SSA sent letters to subsidy recipients explaining
the information SSA had in reference to their income and resources. Unless the
subsidy recipient voluntarily reported significant changes to SSA, the subsidy was
automatically awarded for an additional year. SSA subjected most of the questionable
subsidy awards to this type of redetermination process. 10




9
    The Social Security Act § 1860D-14(a)(3)(B)(iv)(I), 42 U.S.C. § 1395w-114(a)(3)(B)(iv)(I).
10
     SSA did not redetermine eligibility in five approved cases or in five deemed cases.
Page 9 - The Commissioner


SSA’s New Redetermination Process

In August 2007, SSA advised us it initiated a new, more rigorous process to
redetermine the eligibility of subsidy recipients. As part of this new process, SSA
selected 500,000 cases for redetermination based on specific characteristics. SSA
planned to mail notices to each of these subsidy recipients and request they verify
certain information affecting subsidy eligibility. According to SSA staff, recipients must
respond to these notices or face subsidy termination, effective January 2008.

In September 2007, we identified the current status of subsidies for each of the
36 questionable approvals and found

•   28 individuals were enrolled in a Part D prescription drug plan and continued to
    receive low-income subsidy benefits;
•   7 individuals were enrolled in a Part D prescription drug plan, but no longer received
    low-income subsidy benefits; and
•   1 individual approved for the subsidy did not appear to be enrolled in a Part D
    prescription drug plan.

Of the 28 questionable subsidy approvals where the individuals currently received
subsidy benefits, 11 were among the 500,000 cases included as part of the new
redetermination process. However, the remaining 17 questionable subsidies are likely
to continue for at least another year. Projection of our sample findings to the population
of approved subsidies indicated that approximately 130,000 questionable subsidies are
likely to continue for at least an additional 12 months because they were not subjected
to the new redetermination process.

CONCLUSION AND RECOMMENDATIONS
We estimate SSA approved Medicare Part D low-income subsidies to approximately
276,000 applicants whose income and/or resources exceeded established eligibility
limits. The subsequent enrollment of these individuals in prescription drug plans would
result in estimated Medicare Trust Fund Part D low-income subsidy expenditures of
approximately $473 million during a 12-month period. Based on our sample results, we
estimate SSA’s new redetermination process is unlikely to correct these errors in
approximately 130,000 of the 276,000 cases. These questionable low-income
subsidies are likely to continue, resulting in additional estimated Medicare Trust Fund
Part D low-income subsidy expenditures of approximately $224 million over the next
12 months. This occurred primarily because SSA did not obtain information needed to
verify income and resource amounts that appeared on subsidy applications prior to
issuing eligibility determinations. SSA believes it made correct subsidy award decisions
based on information available when it rendered eligibility determinations. However,
information now available indicates SSA approved low-income subsidies to a significant
number of individuals who did not appear to meet low-income subsidy eligibility limits.
We believe the nature of these cases requires immediate action be taken so that only
eligible individuals receive subsidies.
Page 10 - The Commissioner


We recommend that SSA:

1. Develop a process to ensure income and resource amounts appearing on all future
   applications are subjected to appropriate methods of verification.

2. Work more closely with the IRS to obtain timely income and resource data and use
   this data to verify low-income subsidy eligibility.

3. Ensure its redetermination process identifies and terminates improperly awarded
   subsidies currently in effect.

AGENCY COMMENTS

SSA disagreed with the results of our review, agreed in theory with Recommendation 1,
disagreed with Recommendation 2, and agreed with the intent of Recommendation 3.
See appendix D for the full text of SSA’s comments.

Regarding the result of our review, SSA stated most of the discrepancies cited in the
report were identified using data obtained after subsidy approval. Because these data
were not available to SSA when it processed the subsidy applications, SSA believes it
correctly approved the subsidies. SSA disagreed with our estimated questionable
expenditures of $473 million during a 12-month period and $224 over the next
12 months. Instead, based on its own analysis, SSA believes incorrect eligibility
decisions accounted for $53 million during a 12-month period and another $53 million
for the following 12 months.

SSA agreed in theory with Recommendation 1. SSA agreed it could better ensure all
subsidy decisions were documented and has taken action to remind employees of the
appropriate documentation requirements. SSA believes its verification process
conforms to the Medicare Modernization Act’s requirements for a simplified application
based on attestation subject to appropriate verification.

SSA disagreed with Recommendation 2 stating it worked with the IRS to establish a
process to obtain the best available data the IRS can provide and believes there are no
further steps it can take to obtain more timely data.

SSA agreed with the intent of Recommendation 3 stating its Office of Quality
Performance will evaluate the redetermination process to determine whether any
adjustments in the profiling process are necessary to identify individuals no longer
eligible for the subsidy. SSA will review the findings once the evaluation is complete.

OIG RESPONSE

We appreciate SSA’s comments and incorporated some of SSA’s suggested
modifications into the Background section of the report. We agree with SSA’s assertion
that it based subsidy eligibility determinations on financial information available when
applications were processed. However, SSA acknowledges that external data available
Page 11 - The Commissioner


when applications were processed were neither current nor complete. This lack of
information required that SSA make eligibility determinations based heavily on income
and resource amounts self reported by subsidy applicants. We agree with SSA that our
audit results were based on use of data that, in some cases, were not available to SSA
when it rendered subsidy eligibility determinations. However, the data indicate the
applicant-provided income and resource amounts, upon which SSA based subsidy
eligibility, were not always accurate. As a result, SSA awarded subsidy benefits to a
significant number of individuals whose income and/or resources appeared to exceed
eligibility limits.

We are encouraged that SSA agreed in theory or with the intent of two of our
recommendations. SSA also disagreed with one recommendation. Our concerns with
SSA's response to a specific section of the report, as well as its response to
Recommendation 2 are discussed below.

SSA disagreed that eight cases discussed in the report section, Field Offices
Disregarded Agency Data Without Documentation should be considered payment
errors. SSA states “…subsequent review of these cases showed they were correctly
decided when we approved the subsidy….” To clarify, SSA did not perform additional
work to validate these eligibility determinations. In discussing these specific cases with
SSA Operations staff, SSA agreed no documentation existed to indicate why field office
staff disregarded agency data in favor of lower applicant data. SSA staff concluded the
lack of documentation rendered them unable to determine whether an error occurred.
However, in our opinion, the lack of documentation does not validate the subsidy
award, it raises legitimate questions about the validity of the award. In fact, in two of
the eight cases, questionable subsidy benefits were ultimately terminated because SSA
subsequently applied agency data contradicting income and resource amounts
provided by the subsidy applicants.

Regarding Recommendation 2, we agree SSA worked with the IRS to establish a
process that provides financial data. However, we do not agree this process obtains
the best data the IRS can provide. IRS data are derived from information on IRS Form
1099 and similar reports of financial transactions submitted to IRS for a tax year by
financial institutions, brokerage firms, government agencies, employers, etc. The IRS
data reflect a total amount paid during the tax year. However, SSA policies
acknowledge the data IRS provides SSA “…is generally two years old (e.g., IRS data
received in 2005 is for tax year 2003).” 11 Our point is simply that SSA should decide
low income subsidy eligibility based on current data.




                                                         Patrick P. O’Carroll, Jr.


11
     SSA, POMS, HI 03035.005E.3.a, Verification Process - General.
                                     Appendices
APPENDIX A – Subsidy Application Process Flowchart

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                   Appendix A

Subsidy Application Process Flowchart
                                                                     Appendix B

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed the Social Security Administration’s (SSA) process for verifying income
    and resource information reported on the Application for Help with Medicare
    Prescription Drug Plan Costs (Form SSA-1020-OCR-SM).

•   Reviewed the applicable sections of the Social Security Act, Code of Federal
    Regulations, and SSA’s Program Operations Manual System and Modernized
    Systems Operation Manual.

•   Interviewed SSA employees from the Offices of Retirement and Survivors Insurance
    Systems, Public Services and Operations Support, Income Security Programs, and
    Quality Performance.

•   Flowcharted the application process (see Appendix A).

•   Obtained February 2007 subsidy application processing data from SSA’s Medicare
    Application Processing System identifying 2,109,023 individuals for whom SSA
    approved subsidy applications and another 2,523,257 individuals for whom SSA
    denied subsidy applications.

•   Selected and reviewed a random sample of 50 SSNs for each population of
    approved and denied applications for a total of 100 SSNs. We initially reviewed a
    statistical sample of 50 denied and 50 approved subsidy applications. Review of
    denied applications indicated SSA properly denied each application (applicant
    income and/or resources exceeded specified limits). However, review of approved
    applications identified concerns that caused us to expand our statistical sample to
    include a total of 275 approved applications.

•   Obtained and reviewed Medicare Application Processing System, Master Earnings
    File and the Office of Child Support Enforcement’s National Directory of New Hire
    records to determine the propriety of subsidies approved and denied, and the
    adequacy of support for the decision.

We determined the computer-processed data from the Medicare Application
Processing System were sufficiently reliable for our intended use. We conducted tests
to determine the completeness and accuracy of the data. We did not test data from
sources outside SSA to verify its completeness and accuracy.




                                           B-1
We performed our audit between February and October 2007 in Dallas, Texas. The
entities audited were the Office of the Deputy Commissioner for Operations and the
Office of Retirement and Survivors Insurance Systems under the Deputy Commissioner
for Systems. We conducted our audit in accordance with generally accepted
government auditing standards.




                                       B-2
                                                                             Appendix C

Sampling Methodology and Results
Data from the Social Security Administration’s Medicare Application Processing System
indicated that, as of February 22, 2007, SSA approved Medicare Part D low-income
subsidies to 2,109,023 applicants and denied low-income subsidies to
2,523,257 applicants. We initially reviewed a statistical sample of 50 denied and
50 approved subsidy applications. Preliminary review of denied applications indicated
further testing was not warranted because SSA properly denied each application
(applicant income and/or resources exceeded specified limits). However, preliminary
review of approved applications identified concerns that caused us to expand our
statistical sample to include a total of 275 approved applications.


                       STATISTICAL SAMPLE OF MEDICARE
                        PART D SUBSIDY DETERMINATIONS
                           DECISION                        NUMBER REVIEWED
              APPLICATION DENIED                                 50
              APPLICATION APPROVED                               275
              TOTAL                                              325


Results of our review of 275 approved subsidy applications is provided below:

                  Attribute Appraisal: Subsidy Approved for Applicant

                       Subsidy Eligibility Not Properly Established
Population of Approved Subsidy Applicants                                         2,109,023
Sample Size                                                                            275
Number of Applicants whose Income/Resources Exceeded Eligibility Limits                 36
Projection to Population of Approved Subsidy Applicants:
    Lower Limit                                                                    208,238
    Point Estimate                                                                 276,090
    Upper Limit                                                                    356,803
      All projections are at the 90-percent confidence level.




                                                  C-1
                                          Cost Estimate

                       Subsidy Eligibility Not Properly Established
Estimated Number of Applicants Approved for Subsidy Although Income/Resources
                                                                                          276,090
Exceeded Eligibility Limits
2006 Medicare Trust Fund Low-Income Subsidy Expenditure per Low-Income Subsidy
         1                                                                                     $1,715
Enrollee
Total Estimated Questionable Medicare Trust Fund Part D Low-Income Subsidy
                                                                                     $473,494,350
Expenditures:


Based on the results of our sample, we estimate that SSA approved subsidies to
approximately 276,000 applicants whose income and/or resources exceeded eligibility
limits. Based on the calendar year 2006 average subsidy cost of $1,715 per
low-income subsidy enrollee reported by the Medicare Boards of Trustees, we estimate
that enrollment of these individuals in prescription drug plans would result in Medicare
Trust Fund Part D low-income subsidy expenditures of about $473 million during a
12-month period.

                   Attribute Appraisal: Questionable Subsidy Award

                       Subsidy Benefits Currently Paid and Cases
                     Not Subjected to New Redetermination Process
Population of Approved Subsidy Applicants                                                2,109,023
Sample Size                                                                                      275
Number of Questionable Subsidy Award Cases Where Subsidy Benefits Continued and
                                                                                                  17
Cases were not Included in SSA’s New Redetermination Process
Projection to Population of Approved Subsidy Applicants:
    Lower Limit                                                                                83,874
    Point Estimate                                                                        130,376
    Upper Limit                                                                           192,520
      All projections are at the 90-percent confidence level.




1
 2007 Annual Report of the Boards of Trustees of the Federal Hospital Insurance and Federal
Supplementary Medical Insurance Trust Funds, page 157, Table IV.B.11, Incurred Reimbursement
Amounts per Enrollee for Part D Expenditures.


                                                  C-2
                                         Cost Estimate

       Questionable Subsidies Likely to Continue an Additional 12 Months
Estimated Number of Questionable Subsidies Likely to Continue at Least an Additional
                                                                                           130,376
12 Months Because Applicants were not Subject to New Redetermination Process
2006 Medicare Trust Fund Low-Income Subsidy Expenditure per Low-Income Subsidy
         2                                                                                     $1,715
Enrollee
Estimated Funds Put to Better Use                                                      $223,594,840


Based on the results of our sample effort, we estimate that questionable subsidies to
approximately 130,000 applicants will likely continue for at least 12 additional months
because SSA did not subject these cases to its new redetermination process. Based
on the calendar year 2006 average low-income subsidy cost of $1,715 per low-income
subsidy enrollee reported by the Medicare Boards of Trustees, we estimate continued
enrollment of these individuals in prescription drug plans will likely result in questionable
Medicare Trust Fund Part D low-income subsidy expenditures of $224 million over
12 months.




2
 2007 Annual Report of the Boards of Trustees of the Federal Hospital Insurance and Federal
Supplementary Medical Insurance Trust Funds, page 157, Table IV.B.11, Incurred Reimbursement
Amounts per Enrollee for Part D Expenditures.


                                                 C-3
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM

Date:      January 15, 2008                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David Foster        /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration’s
           Income and Resource Verification Process for Individuals Applying for Help with Medicare
           Prescription Drug Plan Costs” (A-06-06-16135)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments regarding the draft report
           and response to the recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S INCOME AND
RESOURCE VERIFICATION PROCESS FOR INDIVIDUALS APPLYING FOR HELP
WITH MEDICARE PRESCRIPTION DRUG PLAN COSTS” (A-06-06-16135)

Thank you for the opportunity to review and provide comments on this draft report. We have
significant concerns with this draft report and have provided comments on each section. Our
concerns were raised orally at a meeting held on October 31, 2007 where we disagreed with the
results of the review.

The draft report states that we approved subsidy applications without properly establishing
eligibility in about 13 percent (36 cases) of the 275 cases OIG reviewed. We disagree, as OIG
either used data that were not available at the time we made the Low Income Subsidy (LIS)
decision or made incorrect assumptions regarding the data reviewed. OIG went beyond the
question of whether we made the proper decision at the time it determined a Medicare
beneficiary eligible for the LIS, imposing a standard of income and resource verification that was
never part of the design of the LIS program. As a result, we find that eligibility was incorrectly
established based on the data available at the time of the decision in only 4 cases or 1.4 percent
of the sample of 275 cases.

BACKGROUND

We believe that the background section does not provide an accurate description of
the reason we developed a simplified LIS application based on attestation. The second paragraph
on page 2 states we developed an electronic application process based on attestation and agency
matches "because of the high volume of subsidy applications." While we did develop an
electronic application process to efficiently process the large volume of subsidy applications, the
report should state that the Medicare Modernization Act (MMA) required us to "develop a
model, simplified application form" and that the application form "shall consist of an attestation
under penalty of perjury regarding the level of assets or resources.... ." The law further states the
attestations "shall be subject to appropriate methods of verification." See section 1860D-
14(a)(3)(E) of the Social Security Act as amended by MMA.

The background should also indicate that our regulations state that we will compare the
information the individual provides on the application to information in our records and
information we obtain from other Federal agencies and, if necessary, contact the individual to
reconcile discrepancies. It should also state that we are required by the MMA, the Computer
Matching and Privacy Protection Act of 1988, and our matching agreements, to contact the
individual to verify the accuracy of the data before using it to terminate, deny or reduce the
subsidy. Consistent with the law and our regulations, our policy requires that we inform the
individual about any materially discrepant information from other agencies and accept the
individual's reasonable explanation to reconcile the discrepant information. Congress noted in
the legislative history of the MMA provision that the “Commissioner may only require
submission of statements from financial institutions for an application for low income subsidies
to be considered complete. No other documentary evidence may be required with the submission


                                                D-2
of the application.” (See H.R. Conference Report Number 108-391, year 2003, page 473.) We
believe that SSA has implemented policies and procedures which are consistent with
congressional mandates.

In addition, we would note that the Department of Health and Human Services/the Centers for
Medicare and Medicaid Services and the Office of Management and Budget were actively
involved in the development of the Agency’s LIS policies and procedures. These agencies
reviewed and commented on our LIS regulations on several occasions. We briefed congressional
staff on our policy. The need to keep the application process simple, reduce barriers to filing for
LIS and make timely decisions were comments that we heard consistently. The LIS rules were
originally published as a Notice of Proposed Rule Making (NPRM) with an ample time period
for the public, including advocates and other agencies, to comment.

To the extent that the report notes that retroactive corrections could be made to LIS eligibility
determinations, we note that our policies do not provide such retroactive revisions based on the
language of the statute and congressional intent. Section 418.3123 explains when a change in an
individual’s subsidy is effective, which depends on the reason for the change reported by the
individual. For what is known as subsidy changing events, described in section 418.3120(b)(1),
such as the death of a spouse, any change in the subsidy will be effective the month following the
month of the report. For other events, described in 418.3120(b)(2), such as a change in family
size, any change in the subsidy will be effective in January of the next year. In addition to these
reports, we explain in section 418.3125 that we will perform redeterminations within one year of
the first determination of LIS eligibility. After that, eligibility will be redetermined at intervals
determined by the Commissioner. Eligibility changes based on these redeterminations are also
effective in January of the next year.

We responded to public comments in the redetermination LIS NPRM which asked that we allow
reopening of a LIS determination. We explained that redetermination would provide correction
of an erroneous LIS determination if we discover clerical errors within 60 days of an initial
determination or decision. A new section was added to the rules at section 418.3678 to clarify
this policy. See 70 FR 77664, 77673 (December 30, 2005). This narrowly drawn reopening
approach is based on statutory language which was read to indicate that Congress intended that
LIS determinations be prospective in nature and generally effective initially for one year. See
section 1860D-14(a)(3)(B)(ii). This was reiterated in the legislative history of the MMA and
supported by a general enrollment period each year (November 15 - December 31) effective in
January of the next year. This, coupled with the protection afforded by the appeal and
redetermination processes, provide sufficient review of a particular LIS determination.
Moreover, Congress clearly intended a simplified application and adjudication process governing
the determination of LIS eligibility, and we believe a prospective eligibility determination
contributes to that simplification. See section 1860D-14(a)(3)(E)(ii).




                                                D-3
RESULTS OF REVIEW

In this section, OIG states that we approved subsidy applications without properly establishing
eligibility in about 13 percent of the cases OIG reviewed. We agree we did not properly establish
eligibility in 1.4 percent of the study cases. However, we do not agree that the audit showed that
we made incorrect determinations for the remaining cases based on data that was available at the
time the determination was made. The OIG evaluation was based on data obtained subsequent to
the LIS determination in 17 of the sample cases. It is important to note that this subsequent data
was not available to us at the time the favorable LIS determination was made. In addition, it
needs to be understood that the data can be over 2 years old and, in the case of certain
information from the Internal Revenue Service (IRS), we impute the resource values based on
reported income. Our policy is to accept the beneficiary's reasonable explanation (e.g., he or she
no longer has the income, sold the resource, etc.) for any material discrepancies that arose during
the LIS determination process.

The audit has no findings showing the beneficiaries agreed that they had the income and/or
resources indicated in the data OIG obtained subsequent to the LIS determination, or that the
beneficiaries continued to have the same income and/or resources. Therefore, without this
verification, the audit has insufficient support for finding that our determinations were incorrect
at the time they were made or for using the cases to project a percentage of incorrect
determinations in the overall subsidy population. Further, the audit provides no support for
inferring that our subsidy determinations resulted in "questionable" expenditures of $473 million
during a 12-month period and $224 million over the next 12 months. Based on our analysis of
the data, incorrect eligibility decisions accounted for $53 million during a 12 month period and
the same total for the following 12 months.

SUBSIDY ELIGIBILITY NOT ESTABLISHED

In this section, OIG provides a pie chart which incorrectly labels the 36 cases as “Eligibility Not
Established.” Except for four of these cases, we established eligibility for the remainder based
on information available at the time.

Our analysis of the remaining 32 cases is as follows:

   •   Income Verification Not Made – 2 cases (5 percent of OIG identified cases)

       Since IRS data and other matched data could be over 2 years old, we provided a way for
       beneficiaries to attest on the application that their income had decreased. Since our
       policy provides for such attested statements, no re-contact with the beneficiaries was
       required.




                                                D-4
IRS Data Not Available for Initial Decision – 3 cases (8 percent of OIG identified cases)

    SSA established timeframes for adjudication, without IRS data. OIG acknowledges (page
    7, first full paragraph) that our policy is to make determinations without IRS data if data
    is not provided within 28 days, but then goes on to claim that we should retroactively
    deny claims based on information that may be received months later. This is not the
    intent of the LIS program. In our discussion about the 28 days, we explained that this
    was a reasonable time period based on the process that IRS has for posting its records.
    We generally obtain data from the IRS in 12-14 days. If we do not receive the data
    electronically, it is reasonable to assume that IRS does not have the data available.

•   Subsequently Deemed – 5 cases (14 percent of OIG identified cases)

    These cases were included in the payment error calculations. As we explained during the
    October 31, 2007 meeting, a determination of deemed eligibility made by the State
    supersedes our LIS determination. This is because MMA provided an alternate route for
    establishing LIS eligibility, based on the receipt of Medicaid, Supplemental Security
    Income or Medicare Savings Programs. Individuals receiving these benefits are
    “deemed” subsidy eligible (Section 1860D-14(a)(3)(B)(v) of the Act, as amended by
    MMA). Once there is a deemed determination, the State becomes responsible for
    processing the redetermination based on the State’s process. Also, each State has
    different eligibility criteria for Medicaid and Medicare Savings Programs.

•   Field Office (FO) Documentation Issue – 8 cases (22 percent of OIG identified cases)

    We disagree with the inclusion of these cases as payment errors as well as the label “Field
    Office Disregarded Agency Data Without Documentation.” The subsidy application
    verification process requires the FO to select the countable income and/or resource
    amount for the verification determination. For the eight cases, the FOs selected the
    application income and/or resource amounts for the subsidy determination, but did not
    sufficiently document why they chose those amounts instead of the agency data.
    Therefore, a more appropriate description of these cases is "Field Office Used
    Application Income and Resource Amounts Without Sufficient Documentation."
    Subsequent review of these cases showed they were correctly decided when we approved
    the subsidy based on the application and/or resource amounts.

•   Wage Information Not Available – 14 cases (39 percent of OIG identified cases)

    The last sentence of this section states we made incorrect determinations as wage
    information, available after the determination, indicated the individual had excess wages.
    As stated above, we did match application data against agency data, including Office of
    Child Support Enforcement (OCSE) data, to verify wages. We made the subsidy
    determinations based on the wage data available at that time. We would had to have had
    the income data OIG subsequently obtained. Also, we would have needed to confirm
    with the beneficiaries that they had that income at the time of our determination in order


                                            D-5
       to make a different determination. Therefore, we based our subsidy decisions on the best
       wage information that was available to us at the time these applications were processed.

       Inherent in this process is the limitation that IRS data and OCSE data represent income or
       resources that we impute from a past period. Such data indicates that the subsidy
       applicant worked in the past, but the data is not proof that the applicant is currently
       working or will be working during the period for which we are determining subsidy
       eligibility. In addition, the data we get from the IRS and OCSE are the most recent and
       accurate data that is available at the time we request it. Given the need for us to provide a
       timely eligibility decision for subsidy applicants, it is inconsistent with our policies and
       procedures and congressional intent to hold applications until more recent data might be
       available from IRS and OCSE.

SSA’S ORIGINAL REDETERMINATION PROCESS

We feel that OIG needs to provide a clearer explanation of our process. Rather than state our
original redetermination process was "passive," this section should state that our original
redetermination process did match subsidy-eligible beneficiaries' income and resource
information on our records with other Federal agency data first. If the match indicated a material
discrepancy that would affect subsidy eligibility, we would send a 1026 redetermination form to
the individual to complete. If the match indicated no material discrepancy, we would send the
individual an L-1026 redetermination form which included a summary of the income, resources
and household information on our records and request the individual to return the form if the
information was not correct. We then sent a 1026 redetermination form to individuals who
returned that form.

SSA’S NEW REDETERMINATION PROCESS

This section states we selected 11 of 28 reviewed cases for a redetermination in 2008. This
section should also note that all but 4 of the original 36 cases had either an L-1026
redetermination, 1026 redetermination or a subsidy changing event redetermination. The audit
provides no support for stating 17 of the cases continue to be "questionable subsidies" (or the
projections of total "questionable subsidies" based on that sample).




                                               D-6
CONCLUSION AND RECOMMENDATIONS

As stated above, we do not agree with the report’s conclusion and the amount that OIG states are
incorrect payments. In summary, our analysis of the 36 cases shows the following:

SSA Agrees With OIG Finding Decision Errors Occurred                   4 Cases

    Projected Costs to Medicare Trust Fund                               $52,609,340


SSA Disagrees With OIG Finding Decision Errors Occurred                32 Cases

  1. Income Verification Not Made (Beneficiary Indicated               2 Cases
     Income Decreased)
     Projected Costs to Medicare Trust Fund                              $26,306,385

  2. IRS Data Not Available (SSA Waited 28 days)                       3 Cases
     Projected Costs to Medicare Trust Fund                             $39,457,005

  3. Subsequently Deemed (State Criteria Applies)                      5 Cases
     Projected Costs to Medicare Trust Fund                             $65,763,390

  4. FO Documentation Issue                                            8 Cases
     Projected Costs to Medicare Trust Fund                            $105,222,110

  5. Wage Information Not Available                                    14 Cases
     Projected Costs to Medicare Trust Fund                            $184,136,120


Total-SSA Disagrees With OIG Finding                                   32 cases
     Projected Cost to Medicare Trust Fund                             $420,885,010

Recommendation 1

Develop a process to ensure income and resource amounts appearing on all future applications
are subjected to appropriate methods of verification.

Comment
We agree in theory, as this recommendation should be modified to state that we need to ensure
all subsidy decisions are documented. We have already developed a verification process that
conforms to the MMA's requirements for a simplified application based on attestation subject to
appropriate verification. Our verification process matches application data with IRS, Office of
Personnel Management, Department of Veterans Affairs, Railroad Retirement Board, and OCSE,
and generates a verification issue to FOs if the match identifies material discrepancies affecting
subsidy eligibility. In addition to us issuing an Administrative Message (AM-07086) on June 21,


                                               D-7
2007, our Office of Training conducted a national training broadcast on June 28, 2007 to remind
employees of the appropriate documentation requirements. In addition, a Medicare Application
Processing System edit was implemented on November 17, 2007 to require the completion of a
Report of Contact to document the verification development. These actions should improve our
documentation of the verification determination.

Recommendation 2

Work more closely with the IRS to obtain timely income and resource data and use this data to
verify low-income subsidy eligibility.

Comment
We disagree. We do not believe there are any further steps we can take with IRS to obtain more
timely data. While we agree that close cooperation with the IRS is vital, it is important to point
out that we worked with IRS to establish a process that provides us the best available data that
IRS can provide. We request data from IRS each Friday of every week, for verification of
income and resources. IRS, by agreement, responds by the second Wednesday (12 days) after the
request, with income and resource data, if available, for each beneficiary requested.

Recommendation 3

Ensure its redetermination process identifies and terminates improperly awarded subsidies
currently in effect.

Comment
We agree with the intent. Our subsidy redetermination process determines prospective subsidy
eligibility. Our Office of Quality Performance will be evaluating our redetermination process to
determine if any adjustments in the redetermination profiling process are necessary in identifying
individuals no longer eligible for the subsidy. We will review the findings once the review is
complete.




                                               D-8
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, (214) 767-6620

Acknowledgments

In addition to those named above:

   Lela Cartwright, Senior Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-06-16135.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
